A-1

Case: 19-2325

Document: 23-2

Filed: 08/04/2020

Page: 1

(2 of 6)

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0455n.06
Case No. 19-2325
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
BARRY CASHIN,
Defendant-Appellant.

Aug 04, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

BEFORE: SUHRHEINRICH, GIBBONS, and BUSH, Circuit Judges
JOHN K. BUSH, Circuit Judge. Barry Cashin appeals the district court’s denial of his
motion to reduce his sentence under 18 U.S.C. § 3582(c)(2). Cashin moved for a sentence
reduction after a Guidelines amendment reduced the base offense level for his 1990 federal drug
conspiracy charge. The district court held that in light of Cashin’s conduct—conspiring to kill a
federal law enforcement agent assigned to his case and organizing complex criminal activity—it
would not reduce his 372-month drug conspiracy sentence. Cashin argues that the district court
improperly weighed or failed to consider certain factors under § 3553(a). Because we do not have
statutory authority to consider this argument, we AFFIRM the district court.
I.
Barry Cashin was arrested in 1991 on the federal drug charges that provide the basis for
the relevant sentence. While he was held before trial, Cashin (with the help of his brother)

APP_001

Case: 19-2325

Document: 23-2

Filed: 08/04/2020

Page: 2

(3 of 6)

Case No. 19-2325, United States v. Cashin
attempted to pay his cellmate to kill the FBI agent who oversaw the investigation that led to his
arrest and to intimidate Government witnesses. United States v. Cashin, Nos. 91–2303, 91–2329,
1993 WL 106847, at *1 (6th Cir. Apr. 9, 1993) (per curiam). That plan was unsuccessful because
his cellmate and putative accomplice contacted the FBI and chose to cooperate.
On December 10, 1990, Cashin entered a plea agreement in the drug case. The agreement
allowed the Government to charge him separately with post-arrest crimes. He accordingly pleaded
guilty to conspiracy to distribute a controlled substance in violation of 21 U.S.C. §§ 846 and
841(a)(1), and the government agreed to dismiss the other charges brought against him. On
December 12, he was indicted separately for conspiracy to tamper with a witness in violation of
18 U.S.C. §§ 371 and 1512(b), and witness tampering in violation of 18 U.S.C. §§ 1512(b) and 2.
Cashin was sentenced on the drug conspiracy charge on March 5, 1991. The district court
determined Cashin’s sentencing range was 360 months to life imprisonment based on a Criminal
History Category of III and an offense level of 40—a base level of 32 for a conspiracy involving
over 1000 kilograms of marijuana, in addition to 2 levels for use of a firearm, 4 levels for being an
organization leader with more than five individuals involved, and 2 levels for obstruction of justice
for attempting to tamper with a witness. United States v. Cashin, No. 92-2555, 1994 WL 47784,
at *3 (6th Cir. Feb. 15, 1994) (per curiam). The district court imposed a sentence of 372 months,
which this court affirmed. Id. at *10. Cashin was subsequently charged, convicted, and sentenced
to 60 months for witness tampering conspiracy and 110 months for substantive witness tampering,
to be served consecutively with his drug conspiracy sentence.
In 2015, Cashin filed a pro se motion to modify or reduce his 372-month sentence under
18 U.S.C. § 3582(c)(2) for the drug conspiracy conviction after Amendment 782 to the United
States Sentencing Guidelines reduced by two the applicable offense level. The district court

2

APP_002

Case: 19-2325

Document: 23-2

Filed: 08/04/2020

Page: 3

(4 of 6)

Case No. 19-2325, United States v. Cashin
appointed counsel to Cashin and requested that the Probation Department prepare a § 1B1.10 Drug
Guideline Amendment Report to calculate Cashin’s amended Guidelines range.

Probation

concluded that the amended Guideline range was 292 to 365 months. The Government filed a
response, arguing that Cashin was ineligible for a sentence modification under § 3582 because his
sentence was not “based on” an amended guideline. After the responsive briefs were filed, Cashin
filed a supplemental memorandum informing the district court he had been diagnosed with
persistent atrial fibrillation and was placed by the Bureau of Prisons in Care Level 3, for inmates
requiring frequent medical care. He accordingly requested that the district court take his medical
condition into account when exercising its discretion in considering his motion.
The district court rejected the Government’s contention that Cashin was ineligible for a
sentence modification under 18 U.S.C. § 3582(c)(2), but it nonetheless denied the motion as an
exercise of its discretion after applying the factors laid out in 18 U.S.C. § 3553(a). Cashin timely
appealed.
II.
Cashin appeals the district court’s denial of his motion to reduce his sentence under
18 U.S.C. § 3582(c). That section authorizes district courts to modify an otherwise-final sentence
“in the case of a defendant who has been sentenced to a term of imprisonment based on a
sentencing range that has subsequently been lowered by the Sentencing Commission.”
§ 3582(c)(2). No one disputes that Cashin is eligible for a reduction based on the Guidelines
amendment.
Cashin argues that the district court abused its discretion in denying his § 3582(c) motion.
He argues that the district court failed to consider his consecutive sentence for witness
intimidation, and further that it failed to consider his declining health. His argument is therefore

3

APP_003

Case: 19-2325

Document: 23-2

Filed: 08/04/2020

Page: 4

(5 of 6)

Case No. 19-2325, United States v. Cashin
that the district court failed to consider, or improperly weighed, the appropriate § 3553(a) factors
in denying his motion. This type of argument is ordinarily reviewed for reasonableness under
United States v. Booker, 543 U.S. 220 (2005). See United States v. Rayyan, 885 F.3d 436, 440,
442 (6th Cir. 2018) (explaining that procedural reasonableness includes the sentencing court’s
obligation to “consider the [§ 3553(a)] factors” and “adequately explain why it chose the
sentence,” and that substantive reasonableness concerns “a complaint that the court placed too
much weight on some of the § 3553(a) factors and too little on others”); see also United States v.
Turner, 797 F. App’x 226, 229 (6th Cir. 2019); United States v. Reid, 888 F.3d 256, 258 (6th Cir.
2018).
The Government’s threshold argument is that this court is unable to review the denial of
the § 3582(c) motion for Booker reasonableness, and we agree. In United States v. Bowers, we
dismissed a virtually identical appeal for lack of appellate jurisdiction. See 615 F.3d 715 (6th Cir.
2010). The panel explained that appellate jurisdiction over the denial of such a motion was
available, if at all, under 28 U.S.C. § 3742, which authorizes the courts of appeals to hear an appeal
of an “otherwise final sentence,” if the sentence:
(1) was imposed in violation of law; [or]
(2) was imposed as a result of an incorrect application of the sentencing guidelines;
or
(3) is greater than the sentence specified in the applicable guideline range ...; or
(4) was imposed for an offense for which there is no sentencing guideline and is
plainly unreasonable.
18 U.S.C. § 3742(a).
The defendant argued that his sentence “was imposed in violation of law” because the
district court improperly considered certain 3553(a) factors and erred in various factual findings.
See Bowers, 615 F.3d at 719–23. We rejected this argument, reasoning that because such sentence-

4

APP_004

Case: 19-2325

Document: 23-2

Filed: 08/04/2020

Page: 5

(6 of 6)

Case No. 19-2325, United States v. Cashin
reduction motions do not implicate the Sixth Amendment, Booker’s remedial opinion, and its
“reasonableness” review, do not apply. See Bowers, 615 F.3d at 727. Accordingly, the asserted
Booker arguments could not constitute a “violation of law” in a motion for a sentence reduction.
Id. at 727–28. We dismissed for lack of jurisdiction.
In United States v. Marshall, we clarified that § 3742(a) operates as a mandatory claimsprocessing rule, and upheld the core holding of Bowers that the district court’s discretionary
decision to deny a motion for a sentence modification—there, a motion to terminate supervised
release, not a Guidelines Amendment—was unreviewable. See 954 F.3d 823, 825–29 (2020). We
explained that the appeal failed to satisfy the strictures of § 3742(a) because the district court did
not “impose[]” a sentence by denying a motion for modification, and was therefore unreviewable.
See id. at 830.1
As in Marshall and Bowers, Cashin appeals the denial of a motion seeking a sentence
reduction on reasonableness grounds. See Marshall, 954 F.3d at 829 (failure to consider certain
§ 3553(a) factors and reliance on erroneous factual findings); Bowers, 615 F.3d at 723 & n.6
(similar).

Marshall’s clarification that § 3742(a) is nonjurisdictional does not make its

requirements any less mandatory, see United States v. Smithers, 960 F.3d 339, 344 (6th Cir. 2020)
(“Courts generally must enforce a mandatory claims-processing rule just as much as a
jurisdictional restriction whenever a party properly invokes the rule.”), and we are therefore
without authority to consider Cashin’s arguments.
V.
For all these reasons, we AFFIRM the district court’s judgment.

1

We have declined to extend Bowers, and its interpretation of § 3742, to similar motions brought under the First Step
Act. See States v. Ware, 964 F.3d 482 (6th Cir. 2020); United States v. Richardson, 960 F.3d 761 (6th Cir. 2020) (per
curiam); id. at 765 (Kethledge, J., concurring); United States v. Foreman, 958 F.3d 506, 515 (6th Cir. 2020). But, we
are still bound to apply Bowers, as clarified by Marshall, to this proceeding under § 3582(c).

5

APP_005

A-2

Case 1:90-cr-20081-RHC ECF No. 173 filed 11/08/19

PageID.88

Page 1 of 6

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
______________________________________________________________________
UNITED STATES OF AMERICA,
Plaintiff,
v.

Case No. 90-20029 &
90-20081

BARRY DAVID CASHIN,
Defendant.
__________________________________/
OPINION AND ORDER DENYING DEFENDANT’S MOTION FOR
MODIFICATION OR REDUCTION OF SENTENCE PURSUANT TO
18 U.S.C. § 3582(c)(2)
Defendant Barry Cashin moves to reduce his sentence based on a lowered
guideline range for drug offenses in the United States Sentencing Guidelines. (ECF No.
148.) The matter has been fully briefed. (ECF Nos. 155, 156, 157.) For the reasons
provided below, Defendant’s motion is denied.
I. BACKGROUND
Defendant pleaded guilty to conspiracy to distribute a controlled substance in
violation of 21 U.S.C. § 846 and 21 U.S.C. § 841(a)(1), with a judgment entered on
March 8, 1991. Defendant was sentenced to 372 months (thirty-one years)
imprisonment. There was a plea agreement, but it was not made pursuant to Federal
Rule of Criminal Procedure 11(c)(1)(C). (ECF No. 156, PageID.78-79; ECF No. 157,
PageID.85.) Thus, the court was not required to impose an agreed upon sentence or
accept an agreed upon sentencing range. (ECF No. 155-1, PageID.67.) The court

APP_006

Case 1:90-cr-20081-RHC ECF No. 173 filed 11/08/19

PageID.89

Page 2 of 6

determined that Defendant’s offense level was forty and his criminal history category
was III. The result was an imprisonment range of 360 months to life.
After Defendant’s indictment, but before sentencing, facts came to light that
Defendant was attempting to undermine the prosecution; Defendant recruited his
cellmate and brother to kill an FBI agent that was assigned to his case. Defendant
further conspired to intimidate his co-conspirators to keep them from testifying in
potentially inculpatory ways. On March 28, 1991, a few weeks after his controlled
substance sentencing, Defendant was convicted of conspiracy and attempt to intimidate
witnesses. 18 U.S.C. § 371; 18 U.S.C. § 1512(b). The charge of solicitation to commit a
crime of violence, relating to his alleged attempts to murder an FBI agent, resulted in a
hung jury. 18 U.S.C. § 373. For the crimes he was convicted of, Defendant was
sentenced to 170 months imprisonment. The sentence ran consecutively to Defendant’s
controlled substance sentence, resulting in a total of 542 months imprisonment.
In 2014, Amendment 782 of the U.S. Sentencing Guidelines lowered the offense
level for all drug offenses, including for Defendant’s. Compare U.S.S.G. § 2D1.1(6)
(U.S. Sentencing Comm’n 1990) (“Level 32”), with U.S.S.G. § 2D1.1(c)(5) (U.S.
Sentencing Comm’n 2018) (“Level 30”). Now, with Defendant’s base offense level
lowered two points, his imprisonment range would be 292 to 365 months. See U.S.S.G.
Sentencing Table.
II. DISCUSSION
Defendant’s sentencing for the offenses related to his intimidation of witnesses is
not subject to change at this point. Defendant was sentenced based on an offense level
of thirty-two, to which Amendment 782 does not apply and subsequent amendments to

2
APP_007

Case 1:90-cr-20081-RHC ECF No. 173 filed 11/08/19

PageID.90

Page 3 of 6

his original U.S.S.G. § 1B1.10 report do not affect. 1 Defendant does not contest this
point.
The government’s argument to the contrary notwithstanding, the change to
Defendant’s sentencing range does allow the court to modify his sentence for his
controlled substance offense. 18 U.S.C. § 3582(c)(2) grants authority to reduce a term
of imprisonment if the defendant’s sentence was imposed “based on a sentencing range
that has subsequently been lowered.” 18 U.S.C. § 3582(c)(2) (emphasis added). A
sentencing decision is almost always “based on” the guideline range. “Indeed, the
Guidelines are ‘the starting point for every sentencing calculation in the federal system.
Even if the sentencing judge sees a reason to vary from the guidelines, if the judge uses
the sentencing range as the beginning point to explain the decision to deviate from it,
then the Guidelines are in a real sense the basis for the sentence.’” Hughes v. United
States, 138 S. Ct. 1765, 1775 (2018) (quoting Peugh v. United States, 569 U.S. 530,
542, 133 S. Ct. 2072 (2013)). In the Sixth Circuit, “[i]n determining whether a sentence
is ‘based on’ a subsequently lowered guideline range in a plain-meaning sense of the
words, we must consider whether the original sentence was, in fact, ‘based on’ such a
range; that is, we look to what the district court actually said and did at the original
sentencing.” United States v. Hameed, 614 F.3d 259, 264 (6th Cir. 2010) (citations
removed).
Looking at what was “actually said and [done],” the court’s sentence was “based
on” Defendant’s guideline range. Hameed, 614 F.3d at 264. The Statement of Reasons

1

The government’s response to Defendant’s motion was actually filed as a
response to Defendant’s corrected U.S.S.G. § 1B1.10 report.
3
APP_008

Case 1:90-cr-20081-RHC ECF No. 173 filed 11/08/19

PageID.91

Page 4 of 6

in Defendant’s judgment lays out the guideline range determined by the court. Further,
in an attachment to the Statement, the court explained that “the mid-point of the
guideline range is appropriate” for Defendant’s sentence. In the process of sentencing,
the court mentioned that it had the ability to sentence Defendant to life in prison, a direct
reference to the guideline range. (ECF No. 155, PageID.56.) The court “start[ed]” from,
relied on, and referred to Defendant’s guideline range at sentencing. Hughes, 138 S. Ct.
at 1775. This is enough to conclude that Defendant’s sentence was “based on” his
guideline range.
The government uses the Supreme Court decision Freeman v. United States,
564 U.S. 522, 131 S. Ct. 2685 (2011) to argue that a sentence is not “based on” a
guideline range when, as here, a defendant signs a plea agreement that does not
mention a guideline range. This reliance on Freeman is misplaced. In Freeman, the
Supreme Court found that courts can look only to the plea agreement in determining
whether a sentence was “based on” a guideline range when that sentence was imposed
directly from the plea agreement under Rule 11(c)(1)(C). Freeman, 564 U.S. at 534
(Sotomayor, J., concurring). Under Rule 11(c)(1)(C), “[t]he court may only accept or
reject the agreement, and if it chooses to accept it, at sentencing the court may only
impose the term of imprisonment the agreement calls for; the court may not change its
terms.” Freeman, 564 U.S. at 535. If a court may only accept wholesale the range a
plea agreement calls for, it follows that the court should focus on the plea agreement
alone in deciding whether the sentence was “based on” a guideline range. In line with
this reasoning, the Sixth Circuit has limited Freeman to “the Rule 11(c)(1)(C) context.”
United States v. Garret, 758 F.3d 749, 755 (6th Cir. 2014); see also United States v.

4
APP_009

Case 1:90-cr-20081-RHC ECF No. 173 filed 11/08/19

PageID.92

Page 5 of 6

McNeese, 819 F.3d 922 (6th Cir. 2016) (discussing the Freeman only in application to
Rule 11(c)(1)(C) agreements). Here, Defendant was not sentenced according to the
terms of a Rule 11(c)(1)(C) plea agreement. (ECF No. 156, PageID.78-79; ECF No.
157, PageID.85.) Under Rule 11(c)(1)(B), the court, not the parties, determined the
sentencing range. Freeman is inapplicable.
Although the court could, the court nonetheless will not exercise its authority to
reduce Defendant’s sentence. When considering a sentence reduction under 18 U.S.C.
§ 3582(c)(2), the court is required to consult the U.S. Sentencing Commission’s policy
statement and the sentencing factors laid out in 18 U.S.C. § 3553(a). Dillon v. United
States, 560 U.S. 817, 827, 130 S. Ct. 2683 (2010); U.S.S.G. § 1B1.10.
First, the applicable policy statement from the Sentencing Commission is
provided for in U.S.S.G. § 1B1.10. Dillon, 560 U.S. at 827; United States v. Horn, 612
F.3d 524, 527 (6th Cir. 2010); United States v. Payne, 687 Fed. App’x 447, 447-48 (6th
Cir. 2017). Defendant’s conviction passes § 1B1.10’s requirements. The amendment at
issue has the effect of lowering Defendant’s applicable guideline range, as required
under § 1B1.10(a)(1). It also falls in the “covered amendments” list. U.S.S.G. §
1B1.10(a)(2), (d) (“782”).
Second, the court must consider sentencing factors, including the nature and
circumstances of the offense, the history and characteristics of the defendant, the need
to reflect the seriousness of the offense, and the need to protect the public from further
crimes of the defendant. 18 U.S.C. § 3553(a)(1), (2)(A), (2)(C). Here, Defendant was
involved in a long-running conspiracy with a significant number of participants. He
served in a leadership capacity, helping to distribute at least 1,000 kilograms of

5
APP_010

Case 1:90-cr-20081-RHC ECF No. 173 filed 11/08/19

PageID.93

Page 6 of 6

marijuana. Most disturbingly, Defendant organized with co-conspirators to threaten
witnesses. He was indicted in a murder plot to kill one of the law enforcement agents
assigned to his case. Defendant’s serious and deeply threatening behavior, combined
with his proven skills at organizing complex criminal activities, convince this court that
his original sentence was an appropriate measure of punishment for his actions and that
he poses a continued risk to the public. Defendant’s request for a sentence reduction is
denied.
III. CONCLUSION
Defendant was sentenced “based on” a guideline range that has subsequently
been amended. U.S.S.G. Amendment 782; Hameed, 614 F.3d at 264; Hughes, 138 S.
Ct. at 1775. Thus, the court has the power to modify Defendant’s sentence. 18 U.S.C. §
3582(c)(2). However, Defendant helped organize a major drug trafficking operation,
threatened key witnesses, and conspired to kill a federal agent assigned to his case.
Considering the factors listed in § 3553(a), the court declines the request to reduce
Defendant’s sentence. Accordingly,
IT IS ORDERED that Defendant’s Motion for Modification or Reduction of
Sentence Pursuant to 18 U.S.C. § 3582(c)(2) (ECF No. 148) is DENIED.
s/Robert H. Cleland
ROBERT H. CLELAND
UNITED STATES DISTRICT JUDGE

/

Dated: November 8, 2019
I hereby certify that a copy of the foregoing document was mailed to counsel of record
on this date, November 8, 2019, by electronic and/or ordinary mail.
s/Lisa Wagner
Case Manager and Deputy Clerk
(810) 292-6522

/

S:\Cleland\Cleland\JUDGE'S DESK\C2 ORDERS\90-20029.CHASHIN.MotionforModificationorReductioninSentence.RMK2.docx

6
APP_011

A-3

Case 1:90-cr-20029-RHC ECF No. 159 filed 11/08/19

PageID.97

Page 1 of 6

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
______________________________________________________________________
UNITED STATES OF AMERICA,
Plaintiff,
v.

Case No. 90-20029 &
90-20081

BARRY DAVID CASHIN,
Defendant.
__________________________________/
OPINION AND ORDER DENYING DEFENDANT’S MOTION FOR
MODIFICATION OR REDUCTION OF SENTENCE PURSUANT TO
18 U.S.C. § 3582(c)(2)
Defendant Barry Cashin moves to reduce his sentence based on a lowered
guideline range for drug offenses in the United States Sentencing Guidelines. (ECF No.
148.) The matter has been fully briefed. (ECF Nos. 155, 156, 157.) For the reasons
provided below, Defendant’s motion is denied.
I. BACKGROUND
Defendant pleaded guilty to conspiracy to distribute a controlled substance in
violation of 21 U.S.C. § 846 and 21 U.S.C. § 841(a)(1), with a judgment entered on
March 8, 1991. Defendant was sentenced to 372 months (thirty-one years)
imprisonment. There was a plea agreement, but it was not made pursuant to Federal
Rule of Criminal Procedure 11(c)(1)(C). (ECF No. 156, PageID.78-79; ECF No. 157,
PageID.85.) Thus, the court was not required to impose an agreed upon sentence or
accept an agreed upon sentencing range. (ECF No. 155-1, PageID.67.) The court

APP_012

Case 1:90-cr-20029-RHC ECF No. 159 filed 11/08/19

PageID.98

Page 2 of 6

determined that Defendant’s offense level was forty and his criminal history category
was III. The result was an imprisonment range of 360 months to life.
After Defendant’s indictment, but before sentencing, facts came to light that
Defendant was attempting to undermine the prosecution; Defendant recruited his
cellmate and brother to kill an FBI agent that was assigned to his case. Defendant
further conspired to intimidate his co-conspirators to keep them from testifying in
potentially inculpatory ways. On March 28, 1991, a few weeks after his controlled
substance sentencing, Defendant was convicted of conspiracy and attempt to intimidate
witnesses. 18 U.S.C. § 371; 18 U.S.C. § 1512(b). The charge of solicitation to commit a
crime of violence, relating to his alleged attempts to murder an FBI agent, resulted in a
hung jury. 18 U.S.C. § 373. For the crimes he was convicted of, Defendant was
sentenced to 170 months imprisonment. The sentence ran consecutively to Defendant’s
controlled substance sentence, resulting in a total of 542 months imprisonment.
In 2014, Amendment 782 of the U.S. Sentencing Guidelines lowered the offense
level for all drug offenses, including for Defendant’s. Compare U.S.S.G. § 2D1.1(6)
(U.S. Sentencing Comm’n 1990) (“Level 32”), with U.S.S.G. § 2D1.1(c)(5) (U.S.
Sentencing Comm’n 2018) (“Level 30”). Now, with Defendant’s base offense level
lowered two points, his imprisonment range would be 292 to 365 months. See U.S.S.G.
Sentencing Table.
II. DISCUSSION
Defendant’s sentencing for the offenses related to his intimidation of witnesses is
not subject to change at this point. Defendant was sentenced based on an offense level
of thirty-two, to which Amendment 782 does not apply and subsequent amendments to

2
APP_013

Case 1:90-cr-20029-RHC ECF No. 159 filed 11/08/19

PageID.99

Page 3 of 6

his original U.S.S.G. § 1B1.10 report do not affect. 1 Defendant does not contest this
point.
The government’s argument to the contrary notwithstanding, the change to
Defendant’s sentencing range does allow the court to modify his sentence for his
controlled substance offense. 18 U.S.C. § 3582(c)(2) grants authority to reduce a term
of imprisonment if the defendant’s sentence was imposed “based on a sentencing range
that has subsequently been lowered.” 18 U.S.C. § 3582(c)(2) (emphasis added). A
sentencing decision is almost always “based on” the guideline range. “Indeed, the
Guidelines are ‘the starting point for every sentencing calculation in the federal system.
Even if the sentencing judge sees a reason to vary from the guidelines, if the judge uses
the sentencing range as the beginning point to explain the decision to deviate from it,
then the Guidelines are in a real sense the basis for the sentence.’” Hughes v. United
States, 138 S. Ct. 1765, 1775 (2018) (quoting Peugh v. United States, 569 U.S. 530,
542, 133 S. Ct. 2072 (2013)). In the Sixth Circuit, “[i]n determining whether a sentence
is ‘based on’ a subsequently lowered guideline range in a plain-meaning sense of the
words, we must consider whether the original sentence was, in fact, ‘based on’ such a
range; that is, we look to what the district court actually said and did at the original
sentencing.” United States v. Hameed, 614 F.3d 259, 264 (6th Cir. 2010) (citations
removed).
Looking at what was “actually said and [done],” the court’s sentence was “based
on” Defendant’s guideline range. Hameed, 614 F.3d at 264. The Statement of Reasons

1

The government’s response to Defendant’s motion was actually filed as a
response to Defendant’s corrected U.S.S.G. § 1B1.10 report.
3
APP_014

Case 1:90-cr-20029-RHC ECF No. 159 filed 11/08/19

PageID.100

Page 4 of 6

in Defendant’s judgment lays out the guideline range determined by the court. Further,
in an attachment to the Statement, the court explained that “the mid-point of the
guideline range is appropriate” for Defendant’s sentence. In the process of sentencing,
the court mentioned that it had the ability to sentence Defendant to life in prison, a direct
reference to the guideline range. (ECF No. 155, PageID.56.) The court “start[ed]” from,
relied on, and referred to Defendant’s guideline range at sentencing. Hughes, 138 S. Ct.
at 1775. This is enough to conclude that Defendant’s sentence was “based on” his
guideline range.
The government uses the Supreme Court decision Freeman v. United States,
564 U.S. 522, 131 S. Ct. 2685 (2011) to argue that a sentence is not “based on” a
guideline range when, as here, a defendant signs a plea agreement that does not
mention a guideline range. This reliance on Freeman is misplaced. In Freeman, the
Supreme Court found that courts can look only to the plea agreement in determining
whether a sentence was “based on” a guideline range when that sentence was imposed
directly from the plea agreement under Rule 11(c)(1)(C). Freeman, 564 U.S. at 534
(Sotomayor, J., concurring). Under Rule 11(c)(1)(C), “[t]he court may only accept or
reject the agreement, and if it chooses to accept it, at sentencing the court may only
impose the term of imprisonment the agreement calls for; the court may not change its
terms.” Freeman, 564 U.S. at 535. If a court may only accept wholesale the range a
plea agreement calls for, it follows that the court should focus on the plea agreement
alone in deciding whether the sentence was “based on” a guideline range. In line with
this reasoning, the Sixth Circuit has limited Freeman to “the Rule 11(c)(1)(C) context.”
United States v. Garret, 758 F.3d 749, 755 (6th Cir. 2014); see also United States v.

4
APP_015

Case 1:90-cr-20029-RHC ECF No. 159 filed 11/08/19

PageID.101

Page 5 of 6

McNeese, 819 F.3d 922 (6th Cir. 2016) (discussing the Freeman only in application to
Rule 11(c)(1)(C) agreements). Here, Defendant was not sentenced according to the
terms of a Rule 11(c)(1)(C) plea agreement. (ECF No. 156, PageID.78-79; ECF No.
157, PageID.85.) Under Rule 11(c)(1)(B), the court, not the parties, determined the
sentencing range. Freeman is inapplicable.
Although the court could, the court nonetheless will not exercise its authority to
reduce Defendant’s sentence. When considering a sentence reduction under 18 U.S.C.
§ 3582(c)(2), the court is required to consult the U.S. Sentencing Commission’s policy
statement and the sentencing factors laid out in 18 U.S.C. § 3553(a). Dillon v. United
States, 560 U.S. 817, 827, 130 S. Ct. 2683 (2010); U.S.S.G. § 1B1.10.
First, the applicable policy statement from the Sentencing Commission is
provided for in U.S.S.G. § 1B1.10. Dillon, 560 U.S. at 827; United States v. Horn, 612
F.3d 524, 527 (6th Cir. 2010); United States v. Payne, 687 Fed. App’x 447, 447-48 (6th
Cir. 2017). Defendant’s conviction passes § 1B1.10’s requirements. The amendment at
issue has the effect of lowering Defendant’s applicable guideline range, as required
under § 1B1.10(a)(1). It also falls in the “covered amendments” list. U.S.S.G. §
1B1.10(a)(2), (d) (“782”).
Second, the court must consider sentencing factors, including the nature and
circumstances of the offense, the history and characteristics of the defendant, the need
to reflect the seriousness of the offense, and the need to protect the public from further
crimes of the defendant. 18 U.S.C. § 3553(a)(1), (2)(A), (2)(C). Here, Defendant was
involved in a long-running conspiracy with a significant number of participants. He
served in a leadership capacity, helping to distribute at least 1,000 kilograms of

5
APP_016

Case 1:90-cr-20029-RHC ECF No. 159 filed 11/08/19

PageID.102

Page 6 of 6

marijuana. Most disturbingly, Defendant organized with co-conspirators to threaten
witnesses. He was indicted in a murder plot to kill one of the law enforcement agents
assigned to his case. Defendant’s serious and deeply threatening behavior, combined
with his proven skills at organizing complex criminal activities, convince this court that
his original sentence was an appropriate measure of punishment for his actions and that
he poses a continued risk to the public. Defendant’s request for a sentence reduction is
denied.
III. CONCLUSION
Defendant was sentenced “based on” a guideline range that has subsequently
been amended. U.S.S.G. Amendment 782; Hameed, 614 F.3d at 264; Hughes, 138 S.
Ct. at 1775. Thus, the court has the power to modify Defendant’s sentence. 18 U.S.C. §
3582(c)(2). However, Defendant helped organize a major drug trafficking operation,
threatened key witnesses, and conspired to kill a federal agent assigned to his case.
Considering the factors listed in § 3553(a), the court declines the request to reduce
Defendant’s sentence. Accordingly,
IT IS ORDERED that Defendant’s Motion for Modification or Reduction of
Sentence Pursuant to 18 U.S.C. § 3582(c)(2) (ECF No. 148) is DENIED.
s/Robert H. Cleland
ROBERT H. CLELAND
UNITED STATES DISTRICT JUDGE

/

Dated: November 8, 2019
I hereby certify that a copy of the foregoing document was mailed to counsel of record
on this date, November 8, 2019, by electronic and/or ordinary mail.
s/Lisa Wagner
Case Manager and Deputy Clerk
(810) 292-6522

/

S:\Cleland\Cleland\JUDGE'S DESK\C2 ORDERS\90-20029.CHASHIN.MotionforModificationorReductioninSentence.RMK2.docx

6
APP_017

